                 Changes to the Regulations for Granting
               Extensions of Time to File Corporate Returns
               Are Needed to Alleviate Significant Problems
                    With Administering the Tax Laws

                                     June 2004

                       Reference Number: 2004-30-106




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       June 17, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Changes to the Regulations for Granting
                                     Extensions of Time to File Corporate Returns Are Needed to
                                     Alleviate Significant Problems With Administering the Tax Laws
                                     (Audit # 200330023)


       This report presents the results of our review of the granting of extensions of time to file
       corporate income tax returns. The overall objective of this review was to determine the
       effect that the existing tax laws, tax regulations,1 and Internal Revenue Service (IRS)
       policies and procedures for granting extensions of time for filing corporate income tax
       returns are having on the timely payment of taxes, fairness for all taxpayers, taxpayer
       burden, and the Federal Government’s costs. We initiated this audit because a
       previous Treasury Inspector General for Tax Administration (TIGTA) review of
       extensions of time to file individual income tax returns identified significant problems in
       these areas.2
       In summary, the IRS is not fully meeting its mission because the regulations and related
       operational practices for granting extensions of time to file corporate income tax returns
       are preventing the effective, fair, and efficient administration of the tax laws requiring the
       timely payment of taxes and the assessment of appropriate penalties for late payments.3


       1
         Tax regulations are rules, having the force of law, issued by the IRS to interpret and apply laws added to the
       Internal Revenue Code by the Congress.
       2
         The Regulations for Granting Extensions of Time to File Are Delaying the Receipt of Billions of Tax Dollars and
       Creating Substantial Burden for Compliant Taxpayers (Reference Number 2003-30-162, dated August 2003).
       3
         26 U.S.C. § 6072(a) (2002) requires payment by the normal tax return due date regardless of extensions of time to
       file, while the granting of an extension under 26 C.F.R. § 1.6081-3 (2002) normally prevents the assessment of the
       Delinquency Penalty in 26 U.S.C. § 6651(a)(1) (2002) against taxpayers who have not paid their taxes by the normal
       tax return due date.
                                                          2

A corporation that wishes to obtain a 6-month extension must normally submit an
Application for Automatic Extension of Time to File Corporation Income Tax Return
(Form 7004) to the IRS by the normal tax return due date. Although no justification is
required, the corporation must provide an estimate of its tax liability on Form 7004 as
well as its tax payment information. The IRS will grant the extension of time to file only
if the corporation’s payment information indicates it has paid as much or more than its
estimated tax liability.4
Although an extension of time to file is not an extension of time to pay, approximately
168,000 of the 960,000 taxable corporations that obtained extensions of time to file in
Calendar Year (CY) 1999 had failed to pay $1.8 billion in taxes by the normal tax return
due date. Corporations with an extension accounted for 86 percent of all delinquent
taxes reported on corporate income tax returns filed after the normal CY 1999 tax return
due date.
Payment noncompliance by some corporations that obtain extensions of time to file is
habitual. Approximately 310,000 of the 960,000 taxable corporations that obtained an
extension of time to file in CY 1999 failed to timely pay taxes on returns with extended
due dates at least once between CYs 1998 and 2001, delaying the Federal
Government’s receipt of approximately $5.8 billion in corporate taxes. Approximately
107,000 of the 310,000 corporations were delinquent in at least 2 of the 4 years. The
average delinquent taxes owed by these corporations increased by 21.2 percent
between CYs 1999 and 2000 and by an additional 19.2 percent between CYs 2000 and
2001.
The root causes for this noncompliance problem are the IRS tax regulations and
practices for granting extensions of time to file. These regulations and practices can
result in the granting of 6-month extensions of time to file based on frequently erroneous
information provided by corporations on their extension applications showing that all
anticipated taxes have been paid. For example, the corporate income tax returns filed
by the approximately 960,000 taxable corporations that obtained extensions in CY 1999
reported total tax liabilities that were more than 3 times higher than the total tax
estimates shown on their extension applications as being due and paid. When the
extension applications are compared to the tax returns, the incidence of underestimated
taxes is 5.5 times more prevalent than overestimated taxes. Despite such inaccurate
estimates, once the IRS granted extensions to these corporations, the regulations and
practices generally prevent the IRS from assessing the Delinquency Penalty5 of




4
  The IRS automatically grants a 3-month extension of time to file to certain corporations with foreign income.
While these corporations are not required to submit a request for an extension, they must add a note to their tax
returns to indicate that they have availed themselves of the 3-month extension.
5
  This penalty is also commonly referred to as the Failure to File Penalty. However, the penalty does not apply to
taxpayers who have paid all taxes by the normal tax return due date and thus, could be applied to less than one-half
of the corporations that failed to timely file tax returns due in CY 1999. Therefore, the more accurate term of
Delinquency Penalty will be used throughout this report.
                                                        3

5 percent per month that would otherwise apply to any delinquent taxes that were not
paid by the normal tax return due date.6
The current IRS extension regulations not only prevent the IRS from assessing
Delinquency Penalties in response to payment noncompliance by some corporations,
they also enable corporations owing unusually large amounts (i.e., more than $100,000)
to delay tax payments while avoiding increases in interest and Failure to Pay (FTP)
Penalties that could otherwise apply to their unpaid taxes. In CY 1999, approximately
2,000 corporations that received an extension of time to file had unpaid taxes of more
than $100,000 each at the normal return due date. These corporations, 16 of which
owed more than $10 million each, accounted for approximately 60 percent ($1.1 billion)
of all delinquent taxes for CY 1999 owed by corporations with an extension.
The payment noncompliance suggests the IRS regulations and related operational
practices for granting extensions of time to file may have caused some corporate
taxpayers to lose respect for the deadline for paying income taxes. In addition to
slowing the collection of significant amounts of corporate income taxes, the IRS
regulations and practices for granting extensions have created other adverse effects on
tax administration.
For example, the IRS regulations and practices penalize corporations differently for the
same payment noncompliance. Corporations that file their returns and pay the same
amount of delinquent taxes on the same day can be subject to vastly different interest
and penalty amounts because of the protection from assessment of the Delinquency
Penalty provided by an extension of time to file.
In addition, the IRS regulations and practices create unnecessary taxpayer burden.
While payment-compliant corporations receive no financial benefit from obtaining an
extension of time to file, they bear a substantial share of the burden of the
extension-filing process. In CY 1999, about 800,000 payment-compliant taxable
corporations, 96 percent of which the IRS considers to be small businesses,7 expended
an estimated $183 million to prepare and submit extension forms. These
800,000 payment-compliant corporations would not have been subject to interest or
penalties if they had not obtained an extension of time to file.
Finally, the IRS regulations and practices increase operating costs for the Federal
Government. We estimate the IRS incurred approximately $900,000 in costs to process
extension applications received from taxable corporations in CY 1999. We also
estimate the Federal Government’s interest expenses could have been reduced by up



6
  The Delinquency Penalty is 5 percent per month and generally cannot exceed 25 percent of delinquent taxes. The
Delinquency Penalty is reduced by the amount of the Failure to Pay (FTP) Penalty if they apply concurrently. The
FTP Penalty is assessed on unpaid taxes at a rate of 0.5 percent per month and cannot exceed 25 percent of
delinquent taxes. On grounds other than the amount of unpaid taxes, the IRS can declare an extension void during a
tax return examination and retroactively assess the Delinquency Penalty against the taxpayer.
7
  The IRS includes corporate entities with assets of $10 million or less as part of its small business customer
segment.
                                                         4

to $57.7 million8 if the $1.8 billion in taxes owed by corporate taxpayers with extensions
of time to file in CY 1999 had been paid timely and had been used to avoid additional
borrowing.
We recommended the IRS Commissioner change the regulations for granting
extensions of time for filing corporate returns to eliminate the reliance on taxpayer
estimates of anticipated tax liabilities; provide clear and quantifiable guidelines
regarding the level of tax payment compliance needed to obtain an extension of time to
file; grant extensions only to payment-compliant corporations; and establish 6 months
as the sole length of the extension period. We also recommended that the
Commissioner establish equitable safeguards, commonly called “safe harbors,” to
protect reasonably compliant corporations from unwarranted assessments of the
Delinquency Penalty; require assessment of the Delinquency Penalty, starting the day
after the normal tax return due date, for any delinquent tax amounts in excess of the
safe harbor allowances; and require the assessment of the FTP Penalty, starting the
day after the normal tax return due date, for any delinquent tax amount of $100,000 or
more, regardless of the percentage of taxes paid by the normal tax return due date.
We also recommended that, once the above changes to the IRS regulations have been
implemented and improved payment compliance has been achieved through the
equitable application of the Delinquency Penalty, the IRS Commissioner consider
changing the regulations to eliminate the requirement that taxable corporations must
apply for an extension from the IRS.
Finally, we recommended the IRS Commissioner develop a legislative proposal for
submission to the Department of the Treasury to change the existing rules for the
assessment of increased interest and FTP Penalties. The change would require their
assessment starting the day after the normal tax return due date on any corporate
income tax delinquency of $100,000 or more related to a return that, for any reason,
was not filed by the normal tax return due date.
Management’s Response: The Commissioner, Small Business/Self-Employed (SB/SE)
Division, responded that an IRS study team, convened as the result of the prior TIGTA
audit on individual extensions, will also analyze several recommendations from this
report. These include changing the regulations to eliminate the reliance on taxpayer
estimates of anticipated tax liabilities; providing clear and quantifiable guidelines
regarding the level of tax payment compliance needed to obtain an extension of time to
file and granting extensions only to payment-compliant corporations; establishing
equitable safeguards, or “safe harbors,” to protect reasonably compliant corporations
from unwarranted assessment of the Delinquency Penalty; requiring assessment of the
Delinquency Penalty, starting the day after the normal tax return due date, for any
delinquent tax amounts in excess of the safe harbor allowances; and eliminating the
requirement that taxable corporations must apply for an extension from the IRS. The
Commissioner, SB/SE Division, advised that the study team will also analyze our

8
 Estimate is based on the rate of interest paid on Federal Government debt in Fiscal Year 1999 per the Bureau of
Public Debt.
                                              5

recommendation to develop a legislative proposal to change the existing rules for the
assessment of increased interest and FTP Penalties.
The Commissioner, SB/SE Division, did not agree with our recommendation to change
the regulations to establish 6 months as the sole length of the extension period, stating
that a paperless 3-month extension is provided for certain taxpayers that may not be
able to file or request an extension by the original due date. The Commissioner, SB/SE
Division, also did not agree with our recommendation to change the regulations to
require the assessment of the FTP Penalty, starting the day after the normal corporate
tax return due date, for any delinquent tax amount of $100,000 or more, regardless of
the percentage of taxes paid by the normal tax return due date. If an extension is
granted and the taxpayer fails to pay the required tax, the Commissioner stated that the
taxpayer must pay interest from the due date of the return until the tax is paid.
Finally, the Commissioner, SB/SE Division, did not agree with our estimates of the
potential benefits that could be realized from implementing the recommendations in this
report. The Commissioner expressed concerns with using penalties to increase
revenue and disagreed with our conclusion that, over a 5-year period, taxpayer
expenses of $1.967 billion and IRS processing costs of $5.3 million could be avoided by
eliminating the requirement for taxable corporations to apply for an extension of time to
file. The Commissioner stated there would be no significant reduction in taxpayer
expenses since corporations would still need to make an estimate of the total tax they
would need to report on their returns and, therefore, would still have to ensure they met
all of the requirements for meeting their tax obligations timely. The Commissioner also
stated that the up-front costs to make the needed changes to programming,
publications, and training would eliminate the cost savings outlined in our report.
Management’s complete response to the draft report is included as Appendix VI.
Office of Audit Comment: While we are encouraged the IRS plans to study the
feasibility of implementing some of our recommendations, we continue to believe
taxpayer burden could be reduced and voluntary payment compliance could be
improved by implementing those recommendations with which the IRS disagrees. To
reduce taxpayer burden, for example, changing the regulations to establish 6 months as
the sole length of the extension period would have the effect of eliminating a 2-tier
system under which certain corporations receive automatic 3-month extensions of time
to file without filing an application, but then must submit a paper form to obtain an
additional 3-month extension, if needed.
To improve payment compliance, changing the regulations to assess FTP Penalties on
delinquencies of $100,000 or more (regardless of the percentage of total taxes that the
$100,000 represents) would have the effect of eliminating the IRS assumption that it is
reasonable for corporations to underpay by such large amounts as long as the amount
is not over 10 percent of the corporation’s total tax liability. By its disagreement with this
recommendation, the IRS is taking the position that the interest it charges is a sufficient
deterrent to such a large tax delinquency; however, as shown on page 17 of this report,
the effective interest rate charged by the IRS can be as little as 1.7 percent of a
corporation’s delinquent taxes.
                                                           6

We completely agree with the premise of the IRS Penalty Policy Statement P-1-18,
which states, “Even though other results such as raising of revenue, punishment, or
reimbursement of the costs of enforcement may also arise when penalties are asserted,
the Service will design, administer, and evaluate penalty programs solely on the basis of
whether they do the best possible job of encouraging compliant conduct.” However, we
believe the evidence supports that the existing extension regulations protect corporate
taxpayers from just penalties for payment noncompliance and are, in fact, encouraging
noncompliance. Our recommendations advise the IRS to use its penalty authority to
encourage compliant conduct. If total payment compliance is achieved, the ultimate
result of our recommendations would be $0 in penalty revenue.
We disagree with the IRS’ determination that there would not be a significant reduction
in taxpayer expenses from the recommended elimination of extension applications. As
discussed in this report, the IRS’ own estimates of the volume of extension applications
and related preparation time indicate that taxable corporations will expend
approximately 74 million hours in applying for extensions between CYs 2005 and 2009.
Estimated Tax for Corporations (Form 1120-W), which is available to corporations to
assist them in making the appropriate quarterly estimated tax payments,9 states that the
average time to complete this Form will vary from 10 hours to 51 hours, depending on
individual circumstances. Since our recommendations for requiring payment of
sufficient taxes by the tax return due date mirror the requirements for making estimated
tax payments, we do not believe corporations desiring extensions of time to file would
require additional time to re-estimate their tax liabilities.
We are also unable to evaluate the IRS’ conclusion that processing cost savings would
not be realized by eliminating the requirement for taxable corporations to apply for an
extension of time to file. The IRS provided no specific information to support its
conclusion. Without information on the amounts or time periods associated with the
costs required to change the programming, publications, and training, we cannot
evaluate these change-related costs, including whether they are a one-time or recurring
cost.
While we still believe all of our recommendations are worthwhile, we do not intend to
elevate our disagreement concerning these matters to the Department of the Treasury
for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Parker F. Pearson, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (410) 962-9637.


9
 Corporations generally must make estimated tax payments if they expect their estimated tax (income tax less
credits) to exceed $500 or more. The installments are generally due by the 15th day of the 4th, 6th, 9th, and 12th
months of the tax year.
 Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
    Are Needed to Alleviate Significant Problems With Administering the Tax Laws




                                                  Table of Contents


Background ............................................................................................... Page 1
Regulatory Changes Are Needed to Increase Taxpayer Compliance,
Improve Fairness to All Taxpayers, Reduce Taxpayer Burden, and
Reduce Federal Government Costs .......................................................... Page 3
         Recommendation 1: ...................................................................... Page 28
         Recommendation 2: ...................................................................... Page 34
         Recommendation 3: ...................................................................... Page 36

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 37
Appendix II – Major Contributors to This Report........................................ Page 38
Appendix III – Report Distribution List ....................................................... Page 39
Appendix IV – Outcome Measures ............................................................ Page 40
Appendix V – Calculation of the Implications of Recommendations
on the Federal Government’s Budget Process .......................................... Page 47
Appendix VI – Management’s Response to the Draft Report .................... Page 48
  Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
     Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                  America’s voluntary tax system relies on the timely filing of
Background
                                  tax returns and the timely payment of taxes to efficiently
                                  operate. The filing of a tax return establishes a taxpayer’s
                                  tax liability, as well as any overpayment that must be
                                  refunded or any underpayment that must be collected.
                                  Therefore, delaying the filing of a tax return can slow the
                                  identification and collection of underpaid tax amounts.
                                  The Congress, through the Internal Revenue Code (I.R.C.),
                                  established the normal due date for corporate income tax
                                  returns at 2.5 months after the end of the corporation’s tax
                                  year (e.g., March 15 for tax years ending in December).1
                                  The I.R.C. also establishes this same date as the deadline for
                                  paying corporate income taxes.2
                                  The I.R.C. establishes three primary sanctions for not
                                  paying corporate income taxes by the normal due date: a
                                  Delinquency Penalty,3 a Failure to Pay (FTP) Penalty,4 and
                                  interest.5 Interest assessments, which are tax deductible for
                                  corporations, and FTP Penalty assessments both begin on
                                  the first day of a delinquency (i.e., the day following the
                                  normal tax return due date for newly filed returns) and
                                  continue until the delinquent taxes are fully paid. The
                                  beginning date of a Delinquency Penalty assessment
                                  depends on whether the Internal Revenue Service (IRS)
                                  determines that the tax return revealing the delinquent taxes
                                  was filed late.



                                  1
                                    26 U.S.C. § 6072(b) (2002).
                                  2
                                    26 U.S.C. § 6151(a) (2002).
                                  3
                                    26 U.S.C. § 6651(a)(1) (2002). This penalty is also commonly referred
                                  to as the Failure to File Penalty. However, the penalty does not apply to
                                  taxpayers who have paid all taxes by the normal tax return due date and
                                  thus, could be applied to less than one-half of the corporations that
                                  failed to timely file income tax returns in Calendar Year 1999.
                                  Therefore, the more accurate term of Delinquency Penalty will be used
                                  throughout this report. The Delinquency Penalty is 5 percent per month
                                  and generally cannot exceed 25 percent of delinquent taxes. The
                                  Delinquency Penalty is reduced by the amount of the Failure to Pay
                                  Penalty if they apply concurrently.
                                  4
                                    26 U.S.C. § 6651(a)(2) (2002). The FTP Penalty is 0.5 percent per
                                  month and cannot exceed 25 percent of the taxpayer’s delinquent taxes.
                                  5
                                    26 U.S.C. §§ 6621(a)(2) and (b)(2) (2002). Interest is assessed daily
                                  on unpaid delinquent taxes at rates that change each calendar quarter.
                                                                                                   Page 1
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                The determination that a tax return filed after the normal
                                return due date is late depends on whether the IRS granted
                                the corporation an extension of time to file under authority
                                delegated to it by the Congress.6 Income tax regulations7
                                provide guidelines for obtaining extensions of time to file.8
                                By law, an extension of time to file a corporate income tax
                                return does not extend the deadline for paying the taxes that
                                are due.9
                                A corporation that wishes to obtain a 6-month extension
                                must normally submit an Application for Automatic
                                Extension of Time to File Corporation Income Tax Return
                                (Form 7004) to the IRS by the normal tax return due date.
                                Although no justification is required, the corporation must
                                provide an estimate of its tax liability on Form 7004 as well
                                as its tax payment information. The IRS will grant the
                                extension of time to file only if the corporation’s payment
                                information indicates it has paid as much or more than its
                                estimated tax liability.10
                                According to IRS records,11 about 5.4 million corporations
                                filed income tax returns in Calendar Year (CY) 1999.
                                Approximately 2.8 million corporations had requested an
                                extension of time to file.
                                The audit was performed in accordance with Government
                                Auditing Standards during October and November 2003.
                                To perform the audit, we extracted and computer-analyzed
                                4 years of IRS Business Master File (BMF)12 data for all



                                6
                                  26 U.S.C. § 6081 (2002).
                                7
                                  Tax regulations are rules, having the force of law, written by the IRS to
                                interpret and apply laws added to the I.R.C. by the Congress.
                                8
                                  26 C.F.R. § 1.6081-3 (2002).
                                9
                                  26 U.S.C. § 6081 and 26 U.S.C. § 6161 (2002).
                                10
                                   The IRS automatically grants a 3-month extension of time to file to
                                certain corporations with foreign income. While these corporations are
                                not required to submit a request for an extension, they must add a note
                                to their tax returns to indicate that they have availed themselves of the
                                3-month extension.
                                11
                                   IRS Research Division, Document 6186 (Rev. 11-00).
                                12
                                   The IRS database that consists of Federal tax-related transactions and
                                accounts for business taxpayers. These include employment taxes,
                                income taxes on businesses, and excise taxes.
                                                                                                  Page 2
  Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
     Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                  taxable and nontaxable13 corporations that requested an
                                  extension of time to file income tax returns due in CY 1999,
                                  and the 600,000 taxable and nontaxable corporations that filed
                                  returns after their normal CY 1999 tax return due dates
                                  without obtaining extensions. We did not test management
                                  controls since they were not significant to our audit
                                  objective. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The IRS mission is to provide America’s taxpayers
Regulatory Changes Are
                                  top-quality service by helping them understand and meet
Needed to Increase Taxpayer
                                  their tax responsibilities and by applying the tax law with
Compliance, Improve Fairness
                                  integrity and fairness to all. The IRS is not fully meeting its
to All Taxpayers, Reduce
                                  mission because the regulations and related operational
Taxpayer Burden, and Reduce
                                  practices for granting extensions of time to file corporate
Federal Government Costs
                                  income tax returns are preventing the effective, fair, and
                                  efficient administration of the tax laws requiring the timely
                                  payment of taxes and the assessment of appropriate
                                  penalties for late payments.14 These regulations and related
                                  operational practices are having the following significant
                                  adverse effects on tax administration:
                                       •   The IRS routinely grants extensions of time to file to
                                           corporations that have unpaid taxes totaling billions
                                           of dollars. Approximately 168,000 corporations that
                                           obtained an extension in CY 1999 had failed to pay
                                           $1.8 billion in taxes by the normal tax return due
                                           date. Payment noncompliance by some corporations
                                           that obtain an extension of time to file is habitual,
                                           involves large amounts of delinquent taxes, and
                                           represents significant percentages of taxes due. This
                                           strongly suggests the IRS regulations15 and related

                                  13
                                     The IRS received 2.8 million income tax returns from Subchapter S
                                  corporations in 1999. Income earned by these corporations is not
                                  normally subject to corporate income tax but is, instead, subject to
                                  individual income taxes on the shareholder(s) returns.
                                  14
                                     26 U.S.C. § 6072(a) (2002) requires payment by the normal tax return
                                  due date regardless of extensions of time to file, while the granting of an
                                  extension under 26 C.F.R. § 1.6081-3 normally prevents the assessment
                                  of the Delinquency Penalty in 26 U.S.C. § 6651(a)(1) against taxpayers
                                  who have not paid their taxes by the normal tax return due date.
                                  15
                                     26 C.F.R. § 1.6081-3.
                                                                                                     Page 3
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                         operational practices for granting extensions have
                                         caused some corporations to lose respect for the
                                         deadline for paying income taxes.
                                     •   Fairness to all taxpayers is not being achieved since
                                         similarly situated corporations are assessed
                                         significantly different penalty amounts for
                                         delinquent taxes.
                                     •   Substantial and needless taxpayer burden is being
                                         created, primarily for small business corporations,
                                         since the extension-filing requirements are
                                         unnecessary and time-consuming. In CY 1999,
                                         approximately 800,000 payment-compliant taxable
                                         corporations expended approximately 6.9 million
                                         hours, valued at $183 million, on preparing and
                                         submitting extension forms to the IRS. These
                                         800,000 payment-compliant corporations would not
                                         have been subject to interest or penalties if they had
                                         not obtained an extension of time to file.
                                     •   Federal Government costs are being incurred to
                                         process unnecessary extension forms, and the
                                         Federal Government is losing the benefits normally
                                         derived from the prompt collection of tax revenues.
                                         We estimate the IRS incurred costs of approximately
                                         $900,000 to process extension applications received
                                         from taxable corporations in CY 1999. The
                                         Federal Government’s interest expenses could have
                                         been reduced by up to $57.7 million16 in CY 1999 if
                                         the collection of $1.8 billion in taxes owed by
                                         corporate taxpayers with extensions of time to file
                                         had not been delayed.
                                The root causes for these problems are the IRS tax
                                regulations and practices for granting extensions of time to
                                file. These regulations and practices can result in the
                                granting of 6-month extensions of time to file based on
                                frequently erroneous information provided on the
                                Form 7004 that all anticipated taxes have been paid. These


                                16
                                  Estimate is based on the rate of interest paid on Federal Government
                                debt in Fiscal Year 1999 per the Bureau of Public Debt.
                                                                                                Page 4
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                regulations and practices also generally prevent the IRS
                                from assessing the Delinquency Penalty17 of 5 percent per
                                month during the extension period, regardless of the amount
                                of taxes that were underpaid at the normal tax return due
                                date. The only available sanctions (i.e., interest and the
                                FTP Penalty) against corporations with extensions of time to
                                file may not provide sufficient incentive for making timely
                                tax payments.
                                The adverse effects on tax administration may grow if, as
                                the IRS expects, increasing numbers of corporations obtain
                                extensions of time to file. As displayed in Figure 1, the
                                IRS’ projections of future filing activity for CYs 2004
                                through 2009 indicate the number of extensions obtained by
                                corporate taxpayers will increase by an average of 92,000
                                per year, while corporate tax return filings will increase by
                                an average of 123,000 per year. Thus, the IRS projects an
                                extension growth rate equal to 75 percent of corporate tax
                                return growth. In contrast, only 51 percent of corporations
                                obtained an extension of time to file in 1999.




                                17
                                  On grounds other than the amount of unpaid taxes, the IRS can
                                declare an extension void during a tax return examination and
                                retroactively assess the Delinquency Penalty against the taxpayer.
                                                                                                 Page 5
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                 Figure 1: Projected Annual Increases in New Corporate Returns
                                                 and Extensions (CYs 2004-2009)
                                                                                             T housands
                                                                                              150


                                                                                              120


                                                                                              90


                                                                                              60


                                                                                              30


                                                                                              -




                                                                                      09
                                                                              08
                                                                      07
                                                              06




                                                                                    20
                                                     05




                                                                            20
                                            04




                                                                    20
                                                            20
                                                   20
                                          20

                                      NEW CORP ORAT E EXT ENSIONS       NEW CORPORAT E RET URNS

                                Source: Projections of Returns to be Filed in CYs 2002-2009. Statistics
                                of Income Bulletin, Winter 2002-2003 (April 2003).

                                The remainder of this report presents a detailed analysis of
                                the adverse effects the IRS extension regulations and
                                practices are having on tax administration.
                                Corporations that obtain an extension of time to file are
                                frequently noncompliant in timely paying their taxes
                                To evaluate the level of tax payment noncompliance among
                                corporate taxpayers that obtain extensions of time to file, we
                                computer-analyzed 4 years of tax account data for the
                                approximately 960,000 taxable corporations that obtained an
                                extension of time to file in CY 1999.18 We also
                                computer-analyzed the accounts of approximately
                                300,000 taxable corporations that did not obtain an extension
                                but filed tax returns after the normal CY 1999 due date.
                                More than 653,000 (68 percent) of the 960,000 taxable
                                corporations that filed returns after receiving extensions of
                                time to file in CY 1999 had paid all of their taxes by the
                                normal return due date and filed their tax returns by the

                                18
                                  Account analysis was limited to taxpayers filing a United States
                                (U.S.) Corporation Income Tax Return (Form 1120) or a
                                U.S. Corporation Short-Form Income Tax Return (Form 1120-A),
                                representing approximately 93.6 percent of all return filings by taxable
                                corporations.
                                                                                                   Page 6
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                extended return due date. However, the remaining
                                306,000 corporations (32 percent) presented the IRS with
                                payment and/or filing compliance problems:19
                                     •   Approximately 168,000 corporations failed to pay
                                         all of their taxes by the normal tax return due date.
                                         In addition, approximately 34,000 of these
                                         corporations still had balance due accounts after
                                         filing their returns.
                                     •   Approximately 169,000 corporations filed tax
                                         returns after the extension periods had expired.20
                                The IRS granted an extension of time to file to
                                approximately 960,000 taxable corporations in CY 1999
                                based on information provided on their Forms 7004
                                showing that all anticipated taxes had been paid. However,
                                this information proved to be highly unreliable. The income
                                tax returns subsequently filed by these 960,000 taxable
                                corporations reported total tax liabilities that were more than
                                3 times higher than the total tax estimates shown on their
                                extension applications as being due and paid. When the
                                extension applications are compared to the tax returns, the
                                incidence of underestimated taxes is 5.5 times more
                                prevalent than overestimated taxes.
                                Figure 2 demonstrates the economic impact of payment
                                noncompliance among corporations with an extension of
                                time to file. Corporations with an extension accounted for
                                86 percent of all delinquent taxes reported on corporate
                                income tax returns filed after the normal CY 1999 tax return
                                due date.




                                19
                                   The 653,000 compliant corporations and 306,000 noncompliant
                                corporations do not equal the total of 960,000 due to rounding.
                                20
                                   The totals of these 2 categories exceed 306,000 because some
                                corporate taxpayers presented both payment and filing compliance
                                problems.
                                                                                              Page 7
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                  Figure 2: CY 1999 Delinquent Taxes on Corporate Income Tax
                                           Returns Filed After Their Normal Due Dates
                                             NO EXTENSIONS ($0.3 Billion Delinquent Taxes)


                                                                14 %




                                                               86 %




                                        WITH EXTENSIONS ($1.8 Billion Delinquent Taxes)

                                Source: Treasury Inspector General for Tax Administration (TIGTA)
                                analysis of IRS BMF data.

                                This noncompliance suggests that obtaining extensions of
                                time to file may be the strategy of choice for corporations
                                that are unable or unwilling to pay their taxes by the normal
                                tax return due date. It also suggests the interest and penalty
                                charges on tax underpayments by corporations with
                                extensions are ineffective for achieving compliance and are
                                hampering the IRS’ ability to carry out its commitment to
                                America’s taxpayers. If the use of extensions of time to file
                                by corporations continues to grow, as the IRS believes it
                                will, it is likely that this apparent indifference to making
                                timely tax payments will also grow.
                                Payment noncompliance by some corporations that obtain
                                extensions of time to file is habitual
                                Approximately 310,000 of the 960,000 corporations that
                                obtained an extension in CY 1999 failed to timely pay taxes
                                on extension-related returns at least once between
                                CYs 1998 and 2001. Approximately 107,000 of the
                                310,000 corporations were delinquent in at least 2 of the
                                4 years. The total delinquent taxes of these corporations
                                exceeded $5.8 billion over the 4-year period. The average
                                delinquent tax amounts owed by these corporations
                                increased by 21.2 percent between CYs 1999 and 2000 and
                                by an additional 19.2 percent between CYs 2000 and 2001.

                                                                                             Page 8
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                Figure 3 presents a 4-year history of the corporations that
                                filed tax returns after their normal due dates, with or without
                                obtaining extensions of time to file. It shows the
                                corporations that obtained an extension in 3 or more years
                                accounted for almost 83 percent of the delinquent taxes.
                                This strong relationship between delinquent taxes and the
                                frequency of extension use suggests some corporations that
                                regularly obtain extensions are indifferent to both the
                                importance of timely tax payments and the impact of current
                                penalties for late payments.
                                 Figure 3: Relationship Between Extension Use and the Amount of
                                                     Delinquent Taxes Owed

                                                                 Billions
                                                                   $4.5
                                                                                                                                        $4.1
                                 DELINQUENT TAXES 1998 TO 2001




                                                                   $4.0

                                                                   $3.5

                                                                   $3.0

                                                                   $2.5

                                                                   $2.0
                                                                                                                        $1.6
                                                                   $1.5

                                                                   $1.0
                                                                                             $0.3          $0.7
                                                                   $0.5
                                                                               $0.2

                                                                  $-
                                                                                NO           ONE          T WO       T HREE       FOUR
                                                                            EXT ENSIONS   EXT ENSION   EXT ENSIONS EXT ENSIONS EXT ENSIONS
                                                                                      C O RPO RATE EXTENSIO NS O BTAINED 1998 TO 2001


                                Source: TIGTA analysis of IRS BMF data.

                                Figure 4 demonstrates that many corporations with an
                                extension of time to file had apparently made little or no
                                effort to pay their taxes by the normal tax return due date for
                                CY 1999. For example, the far right column of Figure 4
                                shows that 107,000 corporations made no tax payments at
                                all by the return due date and owed more than $0.5 billion in
                                delinquent taxes. In all, 130,000 corporations with an
                                extension of time to file paid less than one-half of their tax
                                liabilities by their return due dates.




                                                                                                                                        Page 9
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                      Figure 4: CY 1999 Delinquent Taxes as a Percentage of Tax
                                                              Liability

                                      Delinquent Taxpayers (Thousands)     Delinquent Taxes ($Billions)

                                 120                                                            $0.6
                                 100                                                            $0.5

                                  80                                                            $0.4
                                  60                                                            $0.3
                                  40                                                            $0.2

                                  20                                                            $0.1
                                  -                                                             $-




                                                                   t
                                            %

                                                                 %

                                                                 %

                                                               0%


                                                                 %

                                                                 %

                                                                 %

                                                                 %

                                                                 %

                                                               9%


                                                                en
                                                     21 20

                                                     31 30




                                                     51 50

                                                     61 60

                                                     71 70

                                                     81 80

                                                     91 90
                                       10




                                                             qu
                                                              4




                                                    0% t o 9
                                                to

                                                           to

                                                           to

                                                           to

                                                           to

                                                           to

                                                           to

                                                           to




                                                           in
                                      to




                                                        el
                                              %

                                                        %

                                                        %

                                                        %

                                                        %

                                                        %

                                                        %

                                                        %

                                                        %
                                 1%




                                                      D
                                           11




                                                     41




                                                  10
                                                DELINQUENT TAX AS PERCENTAGE OF LIABILITY


                                Source: TIGTA analysis of IRS BMF data.

                                While it is understandable that some corporations obtaining
                                extensions of time to file may not know their exact tax
                                liabilities before their returns are completed, the above data
                                suggest a lack of concern or due care by some corporations
                                regarding the timeliness of their tax payments.
                                To explore the levels of filing and payment noncompliance
                                among chronically delinquent corporate taxpayers, we
                                analyzed the accounts of approximately 74,000 corporations
                                that obtained an extension of time to file. This group was
                                comprised of all corporations that obtained an extension of
                                time to file in at least 3 of the 4 years (including CY 1999)
                                between CYs 1998 and 2001 and failed to pay their taxes by
                                the normal tax return due date at least twice (including
                                CY 1999) during the 4-year period.
                                In obtaining an extension of time to file in CY 1999, these
                                74,000 corporations estimated tax liabilities that averaged
                                approximately $10,800. However, the tax returns that were
                                eventually filed by these corporations reported tax liabilities
                                that averaged approximately $48,200. In reality, at the time
                                the extensions were obtained, these corporations had
                                underpaid their taxes by a total of $730 million. Of these
                                74,000 corporations, 920 had underpaid by more than
                                $100,000 each, including 45 that had underpaid by more

                                                                                             Page 10
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                than $1 million each and another 6 that had underpaid by
                                more than $10 million each.
                                Figure 5 shows other common filing and payment
                                characteristics of the 74,000 chronically noncompliant
                                corporations.
                                         Figure 5: Characteristics of Chronically Noncompliant
                                        Corporations That Obtained an Extension of Time to File
                                             (Returns With Normal Due Dates in CY 1999)
                                      PRIOR YEAR RETURN HAD TAX
                                                                                        72%
                                               LIABILITY

                               ESTIMATED $0 CURRENT YEAR TAX
                                       ON EXTENSION                                       81%

                               ACTUAL TAX EXCEEDED EXTENSION
                                         ESTIMATE
                                                                                                97%

                                     PAID LESS THAN PRIOR YEAR BY
                                           NORMAL DUE DATE                        52%

                                         PAID UNDER 90% OF TAX BY
                                             NORMAL DUE DATE                                   94%

                                         PAID UNDER 50% OF TAX BY
                                             NORMAL DUE DATE                              79%

                                 PAID 0% OF TAX BY NORMAL DUE
                                              DATE
                                                                                     64%

                                FILED RETURN BY EXTENDED DUE
                                            DATE                                          80%

                                 PAID ALL TAX BY RETURN FILING
                                             DATE                                         79%

                                                                    0%      25%     50%       75%     100%
                                                                         PERCENT OF CORPORATIONS



                                Source: TIGTA analysis of IRS BMF data.

                                Those corporations considered by the IRS to be large or
                                mid-size businesses had underpaid their 1999 taxes by an
                                average of approximately $194,100 each.21 Those
                                corporations considered by the IRS to be small businesses
                                had underpaid their taxes by an average of approximately
                                $6,100 each.22
                                Fairness to all taxpayers is not being achieved
                                The IRS mission statement conveys the IRS’ commitment to
                                helping taxpayers “understand and meet their tax


                                21
                                   The IRS includes corporate entities with assets greater than
                                $10 million in its large and mid-size business customer segment.
                                22
                                   The IRS includes corporate entities with assets of $10 million or less
                                as part of its small business customer segment.
                                                                                                 Page 11
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                responsibilities…by applying the tax law with...fairness to
                                all.” To help taxpayers understand the importance of
                                compliance, the I.R.C. authorizes the IRS to penalize
                                taxpayers who fail to timely file their tax returns and/or
                                timely pay their tax liabilities.
                                Supporting the IRS mission to apply the tax law with
                                fairness to all is IRS Penalty Policy P-1-18, which states:
                                         In the interest of an effective tax system, the
                                         Service uses penalties to encourage voluntary
                                         compliance by: (1) helping taxpayers
                                         understand that compliant conduct is
                                         appropriate and that noncompliant conduct is
                                         not; (2) deterring noncompliance by imposing
                                         costs on it; and (3) establishing the fairness of
                                         the tax system by justly penalizing the
                                         noncompliant taxpayer.
                                The IRS regulations and practices for granting extensions of
                                time to file are not ensuring fairness to all corporate
                                taxpayers because:
                                     •   Corporations can neutralize the penalties and interest
                                         charged for delaying large tax payments by
                                         obtaining an extension of time to file.
                                     •   Similarly situated corporations are assessed
                                         significantly different penalty amounts.
                                The cumulative effect of these problems is the potential
                                erosion of public confidence in the fairness of the tax
                                system. This effect may grow if increasing numbers of
                                corporations use extensions of time to file and benefit from
                                their protection against assessment of the Delinquency
                                Penalty.
                                A study by the Joint Committee on Taxation (JCT)23 pointed
                                out that tax laws sometimes reduce taxpayer perceptions of
                                fairness in the Federal tax system in the following ways:



                                23
                                  JCT, Study of the Overall State of the Federal Tax System and
                                Recommendations for Simplification, Pursuant to Section 8022(3)(B) of
                                the Internal Revenue Code of 1986 (JCS-3-01, dated April 2001).
                                                                                             Page 12
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                     •   Taxpayers may believe certain tax laws confer an
                                         opportunity for manipulation of the tax laws by other
                                         taxpayers.
                                     •   Taxpayers who inadvertently fail to comply may
                                         become disillusioned with apparently inconsistent
                                         tax policy, grow cynical, and ultimately engage in
                                         intentional noncompliance.
                                     •   The disparate treatment of similarly situated
                                         taxpayers can lead some taxpayers to believe they
                                         bear a disproportionate tax burden.
                                Corporations can obtain an extension of time to file to
                                neutralize the penalties and interest charged for delaying
                                large tax payments
                                In a 1999 report to the Congress, the Department of the
                                Treasury, Office of Tax Policy, emphasized that interest and
                                penalties for tax delinquencies should “discourage use of the
                                government as a low-cost source of funds.” The report
                                further stated that if the sanctions were not set sufficiently
                                high, taxpayers “would have an incentive to defer payment
                                of their tax debt and to utilize the funds for other investment
                                purposes.”24
                                Without the Delinquency Penalty of 5 percent per month,
                                the only sanctions against corporations with extensions of
                                time to file are interest charges and the FTP Penalty. These
                                sanctions may not provide sufficient incentive for timely tax
                                payments, depending on the economic conditions and the
                                level of investment risk a corporation is willing to assume.
                                For example, if a corporation had paid less than 90 percent
                                of its taxes by March 15, 2003, the interest and FTP Penalty
                                charges totaled only 5.6 percent of the taxes that were due
                                by March 15 but not paid until the September 15 extended
                                return due date. A corporation paying at least 90 percent of
                                its taxes by March 15 faced interest and penalty charges of



                                24
                                 Department of the Treasury, Office of Tax Policy, Report to The
                                Congress on Penalty and Interest Provisions of the Internal Revenue
                                Code (dated October 1999).
                                                                                             Page 13
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                only 2.6 percent for the same offense.25 The ability of
                                corporations to deduct interest paid to the IRS from their
                                taxable income effectively reduces their actual penalty and
                                interest costs to as little as 1.7 percent.26
                                As Figure 6 shows, approximately 2,000 corporations that
                                received an extension of time to file in CY 1999 had unpaid
                                taxes of more than $100,000 each at the normal return due
                                date. These 2,000 corporations, 16 of which owed more
                                than $10 million each, accounted for approximately
                                60 percent ($1.1 billion) of all delinquent taxes for CY 1999
                                owed by corporations with an extension.
                                         Figure 6: Delinquent Taxes Owed by Corporations With an
                                                    Extension of Time to File (CY 1999)

                                            CORPORATIONS (Thousands)               DELINQUENT TAXES (Billions)

                                 160                                                                     $1.2
                                 140
                                                                                                         $1.0
                                 120
                                                                                                         $0.8
                                 100
                                     80                                                                  $0.6
                                     60
                                                                                                         $0.4
                                     40
                                                                                                         $0.2
                                     20
                                     -                                                                   $-
                                               $1 to $9,999   $10,000 to $99,999    $100,000 or more

                                                  TAX NOT PAID BY NORMAL DUE DATE

                                Source: TIGTA analysis of IRS BMF data.

                                The Congress has expressed its displeasure with taxpayers
                                delaying the payment of substantial amounts of taxes by
                                requiring the earlier doubling of the FTP Penalty rates27 and


                                25
                                   Delinquent taxes less than 10 percent of the tax liability are generally
                                exempt from the FTP Penalty during the extension period per IRS
                                regulations in 26 C.F.R. § 301.6651(c)(4)(ii) (2002).
                                26
                                   Depending on the corporation’s marginal tax rate (the rate at which
                                each additional dollar of income is taxed). The actual cost savings
                                would not be realized until the corporation files its subsequent year
                                return deducting the interest paid.
                                27
                                   26 U.S.C. §§ 6651(a)(3) and (d)(1) (2002).
                                                                                                        Page 14
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                raising interest rates by 2 percent28 for corporate tax
                                delinquencies in excess of $100,000. However, these
                                provisions do not take effect until the corporations have
                                filed their returns, received bills from the IRS, and failed to
                                timely pay in response to the bills. Since extensions of time
                                to file allow corporations to delay the filing of returns, the
                                extensions also delay the IRS billing process.
                                Table 1 demonstrates the economic advantage that a
                                corporation with a significant tax debt receives by obtaining
                                an extension of time to file from the IRS.




                                28
                                     26 U.S.C. § 6621(c) (2002).




                                                                                       Page 15
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                      Table 1: Identical Delinquent Taxes and Payment Dates;
                                       Corporation 2 Files on Normal Tax Return Due Date29
                                                                      Corporation 1       Corporation 2

                                Return Due Date                         3/15/2003           3/15/2003
                                Actual Tax Liability                  $100,000,000        $100,000,000
                                Taxes Unpaid on 3/15                  $ 10,000,000        $ 10,000,000
                                Extended Due Date                       9/15/2003              None
                                Date Return Filed                       9/15/2003           3/15/2003
                                Date Tax Balance Paid                   9/15/2003           9/15/2003
                                Interest                                $255,241             $331,373
                                FTP Penalty30                               $0               $400,000
                                Delinquency Penalty                         $0                   $0
                                Total Interest and Penalties             $255,241           $731,37331
                                Interest and Penalties As a                2.6%                7.3%
                                Percentage of Delinquent
                                Taxes
                                Source: TIGTA analysis. Interest and penalty amounts are rounded to
                                the nearest dollar.

                                In the above hypothetical example, both taxpayers owed the
                                same amount of delinquent taxes for the same period of
                                time. However, Corporation 2 hastened the IRS’ demands
                                for payment by filing on its normal tax return due date and
                                disclosing its tax underpayment.
                                Since Corporation 2 did not pay its taxes until 6 months
                                after it started receiving bills from the IRS, it was assessed
                                an FTP Penalty at twice the normal rate and was assessed

                                29
                                   The hypothetical situation presented in Table 1 is designed to
                                illustrate an egregious, rather than typical, example of the impact that
                                obtaining an extension of time to file can have on penalty and interest
                                charges on the late payment of taxes.
                                30
                                   Corporation 1 is exempt from the FTP penalty for the period of the
                                extension per IRS regulations in 26 C.F.R. § 301.6651(c)(4)(ii) which
                                assume that corporations have reasonable cause to underpay by
                                10 percent of their tax liability during the extension period.
                                31
                                   Assumes the increase in interest began on May 1, 2003, and the
                                increased FTP Penalty began on June 15, 2003.
                                                                                                 Page 16
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                interest at a rate that was 2 percent higher than normal. In
                                contrast, Corporation 1 delayed the disclosure of its
                                $10 million tax delinquency for 6 months with the help of
                                an extension of time to file granted by the IRS. Although
                                Corporation 1 took just as long as Corporation 2 to fully pay
                                its taxes, it faced only the normal interest rate and no
                                penalties.
                                Thus, the current IRS extension regulations create an
                                environment in which corporations that are comfortable
                                with weighing the risks and rewards of alternative financial
                                strategies may not always choose to promptly pay their
                                taxes. In the example presented in Table 1, the 6-month
                                delay in paying taxes by Corporation 1 would have been a
                                profit-maximizing decision in 2003. Although the IRS
                                would have billed the corporation for $255,241 in interest
                                on its untimely paid taxes, the interest would have been
                                deductible from the corporation’s current year income,
                                thereby reducing the actual interest cost to $165,907, or just
                                1.7 percent of the delinquent taxes.
                                During the same March 15 to September 15, 2003, time
                                period, the Standard and Poor’s (S&P) stock market index
                                increased by 18.1 percent.32 In light of such economic
                                conditions, it is possible that, by delaying payment of its
                                taxes by 6 months, Corporation 1 could have made an initial
                                “profit” of $1.8 million by choosing investments with risks
                                and profit potential similar to the S&P 500 stocks. After
                                paying the IRS interest on its untimely paid taxes and then
                                deducting the interest from its current year taxes,
                                Corporation 1’s net “profit” for delaying payment of its
                                taxes could be over $1.6 million.
                                In lieu of investing money that should have been paid in
                                taxes, Corporation 1 could also have benefited by paying
                                any creditors that charged higher interest rates than the IRS.
                                Thus, corporations that may have been unable or unwilling
                                to pay substantial tax amounts on the normal due date in



                                32
                                  The S&P index represents the 500 largest publicly traded companies
                                and is considered to be a benchmark of the overall conditions of the
                                stock market.
                                                                                             Page 17
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                CY 2003 may have profited by seeking an extension of time
                                to file and exploring investment alternatives.
                                In summary, the current extension regulations and related
                                penalty regulations enable corporations that owe large tax
                                amounts to escape both Delinquency and FTP Penalties, and
                                to delay or eliminate increases in interest and FTP Penalties
                                intended by the Congress to ensure rapid payment of large
                                tax delinquencies. As a consequence, depending on the
                                investment environment, investing tax dollars rather than
                                paying them promptly when due can become a profitable
                                financial strategy.
                                If the interest and penalty increases were tied to the tax
                                payment deadline (i.e., the normal tax return due date)
                                rather than the timing of the payment in relation to IRS
                                billing dates, corporations with at least $100,000 in unpaid
                                taxes that file returns after the normal due date would be
                                assessed approximately $120.6 million in additional interest
                                and FTP Penalties between CYs 2005 and 2009. To ensure
                                the effectiveness of such a measure, the IRS would need to
                                change its regulations that currently eliminate an
                                FTP Penalty assessment if the delinquent tax amount is less
                                than 10 percent of the corporation’s total tax liability, even
                                if the amount of the delinquency is unusually large.33
                                Similarly situated corporations are assessed significantly
                                different penalty amounts
                                Fairness in the tax system suggests similarly situated
                                corporations should be treated in a like manner. Further,
                                fairness to all taxpayers suggests all corporations should be
                                confident that other corporations are compliant and that,
                                when noncompliance occurs, appropriate penalties will be
                                assessed.
                                The current regulations and practices for granting extensions
                                of time for filing corporate income tax returns do not
                                promote fairness. Similarly situated corporations are treated
                                differently based only on the Delinquency Penalty


                                33
                                  Delinquent taxes less than 10 percent of the tax liability are generally
                                exempt from the FTP Penalty during the extension period, per
                                IRS regulations in 26 C.F.R. § 301.6651(c)(4)(ii).
                                                                                                 Page 18
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                protection provided by the extension of time to file. As
                                shown by the hypothetical examples in Tables 2 and 3,
                                corporations that file their returns and pay the same amount
                                of delinquent taxes on the same day can be subject to vastly
                                different interest and penalty amounts.
                                In the hypothetical example presented in Table 2, both
                                corporations owed the same amount of taxes on their normal
                                March 15 tax return due dates and both filed their returns on
                                September 15 with full payment of the taxes owed. The
                                only difference between these similarly situated taxpayers is
                                that Corporation A requested and obtained an extension of
                                time to file until September 15 and Corporation B did not.
                                As a result, Corporation B was charged $2,308 more in
                                interest and penalties than Corporation A by not requesting
                                and obtaining an extension of time to file. In actual
                                practice, this penalty imbalance primarily affects small
                                businesses since, based on the corporate tax returns due in
                                CY 1999, approximately 99 percent of the taxpayers fitting
                                the general description of Corporation B were considered by
                                the IRS to be small businesses.




                                                                                     Page 19
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                 Table 2: Identical Delinquent Taxes, Payment Dates, Filing Dates;
                                         Extension of Time to File Protects Corporation A

                                                                          Corporation   Corporation
                                                                              A             B
                                Return Due Date                             3/15/2003    3/15/2003
                                Actual Tax Liability                         $10,000      $10,000
                                Tax Paid by Normal Due Date                     $0          $0
                                Tax Estimate on Extension Form                  $0         N/A
                                Extended Due Date                           9/15/2003      None
                                Date Return Filed                           9/15/2003    9/15/2003
                                Tax Paid With Return                         $10,000      $10,000
                                Interest (5 percent)34                         $255        $313
                                FTP Penalty                                    $300        $300
                                Delinquency Penalty                             $0        $2,250
                                Total Interest and Penalties                   $555       $2,863
                                Source: TIGTA analysis. Interest and penalty amounts are rounded to
                                the nearest dollar.

                                Table 3 demonstrates how the identical timing of payments
                                by two corporations with different extended due dates
                                results in unequal treatment. In this hypothetical example,
                                both corporations received an extension of time to file, filed
                                their returns by September 15, and paid their delinquent
                                taxes on September 15. Corporation C is a domestic
                                corporation doing business principally within offshore
                                United States (U.S.) possessions and, therefore, received an
                                automatic 3-month extension without requesting it from the
                                IRS. However, Corporation C did not file its return by its
                                June 15 extended due date and was charged $1,367 more in
                                interest and penalties than Corporation A for not filing until
                                September 15. Corporation C could have avoided this
                                situation by submitting a request for an additional 3-month
                                extension to September 15.



                                34
                                     Interest is computed daily over a 365-day year.
                                                                                            Page 20
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                 Table 3: Identical Delinquent Taxes, Payment Dates, Filing Dates;
                                 Corporation C Penalized for Obtaining Only a 3-Month Extension

                                                                          Corporation   Corporation
                                                                              A             C
                                Return Due Date                             3/15/2003    3/15/2003
                                Actual Tax Liability                         $10,000      $10,000
                                Tax Paid by Normal Due Date                     $0          $0
                                Tax Estimate on Extension Form                  $0         N/A
                                Extended Due Date                           9/15/2003    6/15/2003
                                Date Return Filed                           9/15/2003    9/15/2003
                                Tax Paid With Return                         $10,000      $10,000
                                Interest (5 percent)35                         $255        $272
                                FTP Penalty                                    $300        $300
                                Delinquency Penalty                             $0        $1,350
                                Total Interest and Penalties                   $555       $1,922
                                Source: TIGTA analysis. Interest and penalty amounts are rounded to
                                the nearest dollar.

                                While Corporations B (see Table 2) and C (see Table 3)
                                both filed tax returns after their respective due dates,
                                Corporation C was charged $941 less than Corporation B
                                for paying late. This is because a corporation that has been
                                granted an extension of time to file is exempt from the
                                Delinquency Penalty for the period of the extension,
                                regardless of whether the return is eventually filed by the
                                extended due date.
                                Extension requirements create unnecessary taxpayer
                                burden, particularly for small businesses
                                The Paperwork Reduction Act36 seeks to ensure that Federal
                                Government agencies balance their need to collect
                                information with the paperwork burden imposed on the
                                public in complying with the collection. The Office of
                                Management and Budget (OMB) measures paperwork

                                35
                                     Interest is computed daily over a 365-day year.
                                36
                                     44 U.S.C. Chapter 35 (2003).
                                                                                            Page 21
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                burden in terms of the time and financial resources the
                                public devotes to complying with information requests.
                                The primary reason for requiring corporations to provide
                                estimated tax liabilities and payment information on the
                                extension application is to ensure they have paid all taxes
                                timely and, thereby, qualify for an extension of time to file.
                                For those corporations applying for extensions of time to
                                file returns due in CY 1999, this goal was generally not met.
                                Given the magnitude of the discrepancies between the tax
                                estimates on the extension forms and the actual tax
                                liabilities, it is unclear whether the information being
                                collected on the extension forms holds any value for the
                                taxpayers or the IRS.
                                For the approximately 960,000 taxable corporations that
                                were granted an extension of time to file in CY 1999, the
                                estimated tax liabilities shown on the extension applications
                                represented only 32 percent of the actual tax liabilities that
                                the corporations subsequently reported on their returns.
                                Underestimated taxes were 5.5 times more prevalent than
                                overestimated taxes on the extension applications.
                                Figure 7 explores the tax estimates of the 168,000 taxable
                                corporations with an extension of time to file that did not
                                pay all of their taxes by their normal CY 1999 return due
                                dates. The data demonstrate that 84 percent of the taxpayers
                                were granted an extension based on tentative tax estimates
                                that represented only 20 percent or less of their actual tax
                                liabilities. These taxpayers accounted for $1.4 billion of the
                                $1.8 billion in CY 1999 delinquent taxes that were related to
                                corporations with extended return due dates.




                                                                                      Page 22
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                Figure 7: Accuracy of Tax Estimates by Delinquent Taxpayers

                                         Delinquent Taxpayers (Thousands)   Delinquent Tax (Millions)


                                     160                                                      $1,200

                                     140
                                                                                              $1,000
                                     120
                                                                                              $800
                                     100

                                       80                                                     $600

                                       60
                                                                                              $400
                                       40
                                                                                              $200
                                       20

                                     -                                                        $-



                                        30 to %
                                                  %

                                                  %

                                                  %

                                        70 to %

                                        80 to %
                                       % to %
                                           cc %
                                        20 to %
                                        10 to y




                                                  y
                                          1% r ac




                                                ac
                                          % 9
                                          % 19

                                          % 29

                                          % 39

                                          % 49

                                          % 59
                                          % 69
                                     90 % 79

                                          A 89
                                             ur
                                             u




                                        40 to

                                        50 to

                                        60 to
                                           cc
                                   A
                                0%




                                        +
                                         ACCURACY OF ESTIMATE ON EXTENSION FORM

                                Source: TIGTA analysis of IRS BMF data.

                                Not only does obtaining an extension of time to file from
                                the IRS not ensure the timely payment of taxes required by
                                law, it enables payment-noncompliant corporations to avoid
                                the full consequences of their noncompliance by preventing
                                the routine assessment of the Delinquency Penalty. In
                                addition, while payment-compliant corporations receive no
                                financial benefit from obtaining extensions of time to file,
                                they bear a substantial share of the burden of the
                                extension-filing process.
                                For example, in CY 1999, about 800,000 of the
                                approximately 960,000 taxable corporations that filed
                                returns after obtaining an extension of time to file were
                                payment-compliant (i.e., all taxes paid by the normal return
                                due date). These 800,000 payment-compliant corporations
                                would not have been subject to interest or penalties if they
                                had not obtained an extension of time to file.




                                                                                                Page 23
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                The IRS and OMB estimate that, in CY 1999, corporations
                                spent 8.75 hours,37 at a cost of $26.50 per hour, to prepare
                                and submit extension applications. Thus, the
                                payment-compliant corporations expended approximately
                                6.9 million hours, valued at $183 million, on extension
                                preparation and submission in CY 1999. During the 5-year
                                period of CYs 2005 through 2009, payment-compliant
                                corporations will be subjected to 47.3 million hours of
                                unnecessary burden, valued at $1.3 billion, from the IRS
                                extension regulations. Approximately 96 percent of this
                                burden will be borne by corporations considered by the IRS
                                to be small businesses.
                                If a new regulatory action that placed such a sizable burden
                                on small businesses was proposed today, it would be subject
                                to extensive review, analysis, and comment to determine its
                                compliance with:
                                     •   The Regulatory Flexibility Act of 1980.38
                                     •   Executive Order 12866 (1993).
                                     •   The Paperwork Reduction Act of 1995.39
                                     •   The Small Business Regulatory Enforcement
                                         Fairness Act of 1996.40
                                     •   The Small Business Paperwork Relief Act of 2002.41
                                     •   Executive Order 13272 (2002).
                                These numerous attempts by the Congress and the President
                                to curb unnecessary paperwork burden would require
                                studies of the impact of such a costly regulation on small
                                businesses, a comparison of the regulation’s costs versus its
                                benefits, and a consideration of less burdensome means of

                                37
                                   Per the Form 7004 used for Tax Years 1998 and 1999, the time
                                estimate includes 5 hours and 30 minutes for record keeping, 58 minutes
                                to learn about the law or the Form, 2 hours and 1 minute to prepare the
                                Form, and 16 minutes to copy, assemble, and mail the Form to the IRS.
                                Per the Form 7004 used for Tax Years 2000 and 2001, the total time for
                                these activities was 9.817 hours.
                                38
                                   Pub. L. No. 96-354.
                                39
                                   44 U.S.C. Chapter 35.
                                40
                                   Pub. L. No. 104-121.
                                41
                                   Pub. L. No. 107-198.
                                                                                              Page 24
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                achieving the desired results. However, the reviews and
                                studies required by these public laws and Presidential orders
                                apply only to new regulations. The IRS regulations for
                                granting extensions of time to file to corporate taxpayers
                                have not changed since 1983.
                                Currently, only certain corporations with offshore or foreign
                                income are exempted from the burden of filing extension
                                applications with the IRS.42 If the IRS changed its
                                regulations to establish 6 months as the sole extension
                                period for all taxable corporations and eliminate the
                                requirement for taxable corporations to apply for extensions,
                                we estimate that, between CYs 2005 and 2009,
                                approximately 2.1 million corporations would be relieved of
                                the burden of preparing and filing extension applications,
                                saving them an estimated $2.0 billion. Of these
                                corporations, approximately 2.0 million (96 percent) are
                                considered small businesses by the IRS.
                                The Federal Government’s costs are increased
                                The IRS incurs a significant and costly burden to process
                                extension applications each year. We estimate the IRS costs
                                to process the extension applications received from taxable
                                corporations in CY 1999 were approximately $900,000.
                                Between CYs 2005 and 2009, the IRS could save
                                $5.3 million by eliminating the processing of the 7.6 million
                                extension applications that are expected to be filed by
                                taxable corporations.
                                In addition to providing opportunities for lowering the IRS’
                                processing costs, changes to the IRS extension regulations
                                and practices could provide further financial benefits to the
                                Federal Government. These benefits involve changes that
                                would speed the flow of tax revenues received from
                                corporations with extensions of time to file.
                                In CY 1999, approximately 168,000 corporations with an
                                extension of time to file failed to pay $1.8 billion in taxes by


                                42
                                  Per 26 C.F.R. § 1.6081-5 (2002), certain corporations need not submit
                                extension forms to be automatically granted 3-month extensions but
                                must submit Form 7004 to receive an extension of 6 months from the
                                normal tax return due date.
                                                                                              Page 25
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                the normal tax return due date. Of this amount,
                                $700 million had remained unpaid by September 30, 1999
                                (the end of the Federal Government’s fiscal year).
                                Increasing tax receipts or decreasing Federal Government
                                expenditures during a fiscal year makes additional funds
                                available for the Government’s use. These additional funds
                                can be used to reduce existing or planned Federal
                                Government debt or to procure additional vital goods and
                                services without incurring debt. The Federal Government
                                would have been presented with such opportunities if more
                                of the $700 million in corporate income taxes that were not
                                paid by September 30, 1999, had been collected in the fiscal
                                year in which they were actually due to be received.
                                Collecting taxes earlier can also help the Federal
                                Government avoid additional borrowing. In CY 1999, for
                                example, the Federal Government’s interest expenses could
                                have been reduced by up to $57.7 million43 if the
                                $1.8 billion in taxes owed by corporate taxpayers with an
                                extension of time to file had been paid timely and had been
                                used to avoid additional borrowing.
                                The earlier collection of corporate income taxes could be
                                brought about by revising IRS extension regulations to
                                1) provide clear, quantifiable guidelines regarding the level
                                of payment compliance needed to obtain an extension of
                                time to file; 2) require the assessment of the Delinquency
                                Penalty on delinquent tax amounts starting on the day after
                                the normal tax return due date; 3) provide equitable
                                safeguards, commonly called “safe harbors,” to ensure the
                                Delinquency Penalty is not assessed for inadvertent or
                                minor underpayments; and 4) establish 6 months as the sole
                                extension of time to file corporate returns.
                                With such changes, we estimate that between CYs 2005 and
                                2009:




                                43
                                  Estimate is based on the rate of interest paid on Federal Government
                                debt in Fiscal Year 1999 per the Bureau of Public Debt.
                                                                                              Page 26
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                     •   Corporations seeking to meet the new safe harbor
                                         allowances44 would increase the amount of taxes
                                         they pay by their normal tax return due dates, thus
                                         incrementally increasing current year Federal
                                         Government receipts in each of the fiscal years.
                                         This would increase tax receipts by the normal
                                         return due date by an estimated $2.9 billion over a
                                         5-year period. Approximately $267.1 million of
                                         these accelerated tax receipts would be collected in
                                         the same fiscal years in which they are actually due,
                                         rather than in subsequent fiscal years. (See
                                         Appendix V for our calculation of these amounts.)
                                     •   Corporations with an extension of time to file that
                                         increase their tax payments by the normal tax return
                                         due date would save $421.5 million in interest and
                                         FTP Penalties in comparison to the interest and
                                         penalties they would be assessed on their current tax
                                         underpayments under the existing IRS regulations.
                                     •   Corporations that are currently assessed Delinquency
                                         Penalties because they file after the normal return
                                         due date without obtaining an extension of time to
                                         file would have the penalties decreased by
                                         $60.7 million because the timely tax payments
                                         would satisfy the conditions of the new safe harbors.
                                     •   Noncompliant corporations would be assessed
                                         Delinquency Penalties of $392.3 million. These
                                         penalties would decrease incrementally over the
                                         5-year period as payment compliance improves.




                                44
                                   The Delinquency Penalty would not be assessed if a corporation with
                                underpaid taxes less than $100,000 filed within 6 months of the normal
                                tax return due date and paid, by the normal tax return due date, an
                                amount at least equal to the prior year’s tax liability or an amount at
                                least equal to 90 percent of the current year’s tax liability. For a
                                corporation not meeting one of these “safe harbor” percentages but
                                filing within 6 months of the normal due date, no Delinquency Penalty
                                would be assessed on the first 10 percent of the current year’s tax
                                liability.
                                                                                               Page 27
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                Recommendations

                                To improve payment compliance, ensure fairness to all
                                taxpayers, relieve taxpayer burden, and reduce the Federal
                                Government’s costs:
                                1. The IRS Commissioner should revise the tax regulations
                                   applicable to corporations to:
                                   a. Eliminate the requirement that corporations make
                                      tentative estimates of their tax liabilities to obtain an
                                      extension of time to file. The revised regulations
                                      should specify that corporations will qualify for an
                                      extension of time to file only if the prescribed
                                      percentage (see Recommendation 1.b.) of the prior
                                      year tax liability or the current year tax liability (as
                                      determined by the tax return, when filed) was paid
                                      by the normal due date for filing the return and any
                                      current year unpaid taxes, as of the day after the
                                      normal tax return due date, are less than $100,000.
                                   b. Grant extensions of time to file only to
                                      payment-compliant corporations. Under the
                                      authority given in I.R.C. § 6081(a) for granting
                                      reasonable extensions of time to file of up to
                                      6 months, extensions should be granted only to
                                      corporations whose underpayments are less than
                                      $100,000 and whose payments by their normal tax
                                      return due dates either:
                                           1) Equal or exceed the corporation’s prior year
                                              tax return liability, or
                                           2) Equal or exceed 90 percent of the
                                              corporation’s current year tax liability.
                                   c. Establish 6 months as the sole length of an extension
                                      of time to file a corporate tax return, replacing the
                                      current paperless 3-month and optional 6-month
                                      extended due dates. This action should be taken
                                      under authority given in I.R.C. § 6081(a) for
                                      granting reasonable extensions of time to file of up
                                      to 6 months.



                                                                                       Page 28
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                   d. Establish safeguards, commonly called “safe
                                      harbors,” to protect reasonably compliant
                                      corporations from unwarranted assessments of the
                                      Delinquency Penalty. Under authority granted in
                                      I.R.C. § 6651(a)(1) for determining reasonable cause
                                      in relation to the Delinquency Penalty, reasonable
                                      cause should be assumed for all corporate income
                                      tax returns filed within 6 months of the normal due
                                      date and having unpaid taxes of less than $100,000,
                                      regardless of whether an extension of time to file
                                      was granted, if:
                                          1) By the normal tax return due date, a
                                             corporation has paid taxes that equal or
                                             exceed its prior year tax liability or paid at
                                             least 90 percent of its current year taxes.
                                             These safe harbors ensure all like-situated
                                             corporations will be subject to the same
                                             penalties for the same payment
                                             noncompliance.
                                          2) Within 6 months after the normal tax return
                                             due date, a corporation has filed a tax return
                                             but has not met either of the payment
                                             requirements, the Delinquency Penalty
                                             should be assessed only on the underpaid tax
                                             amount that exceeds 10 percent of the
                                             corporation’s current year tax liability. This
                                             would supplement the first safeguard by
                                             preventing a corporation from being harshly
                                             penalized for missing the 90 percent payment
                                             requirement by an insignificant amount.
                                   e. Provide for the assessment of the Delinquency
                                      Penalty on all taxes not paid by the normal tax return
                                      due date by corporations filing more than 6 months
                                      after the normal tax return due date or having unpaid
                                      taxes of $100,000 or more the day after the normal
                                      tax return due date. Those corporations with large
                                      underpayments or lengthy delays in filing indicate
                                      they were not prudent in meeting either their tax
                                      payment or tax filing obligations and, therefore,
                                      would not earn the recommended safeguards that are

                                                                                      Page 29
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                       provided to corporations that are making a
                                       reasonable effort to comply.
                                   f. Require the assessment of the FTP Penalty, starting
                                      the day after the normal corporate tax return due
                                      date, for any delinquent tax amount of $100,000 or
                                      more, regardless of the percentage of taxes paid by
                                      the normal tax return due date, by eliminating the
                                      assumption of reasonable cause, as described in
                                      26 C.F.R. § 301.6651-1(c)(4)(ii), for underpayments
                                      of $100,000 or more.
                                Management’s Response: The Commissioner, Small
                                Business/Self-Employed (SB/SE) Division, responded that
                                an IRS study team, convened as the result of the prior
                                TIGTA audit report on individual extensions, will analyze
                                the feasibility of implementing Recommendations 1.a., 1.b.,
                                1.d., and 1.e. and their impact on filing and payment
                                compliance.
                                The Commissioner did not agree with Recommendation
                                1.c., stating that the paperless 3-month extension is based on
                                C.F.R. § 1.6081-5, which provides for an extension of time
                                for filing and paying by the 15th day of the 6th month
                                following the close of the taxable year for certain taxpayers
                                such as foreign corporations that maintain offices in the U.S.
                                and domestic corporations whose principal business income
                                is derived from sources within U.S. possessions. The
                                Commissioner stated this regulation effectively extends the
                                filing date for taxpayers who fall into this category, allows
                                sufficient time to those taxpayers whose records may be
                                outside the U.S. to file a U.S. income tax return, and is not
                                intended for all taxpayers. The Commissioner stated this is
                                a benefit to those corporations that may not be able to file or
                                request an extension by the original due date and none of
                                these corporations are prohibited from requesting a full
                                6-month automatic extension by filing a Form 7004 by the
                                original due date. The Commissioner stated that, if a
                                corporation that qualifies does take advantage of the
                                paperless 3-month extension, but still needs additional time
                                to file (not pay), then the corporation may file Form 7004 by
                                the 15th day of the 6th month following the close of the
                                taxable year to automatically obtain an additional 3 months

                                                                                       Page 30
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                to file. The Commissioner stated that, as the paperless
                                3-month extension of time to file and pay is a benefit to
                                taxpayers and does not prevent a corporate taxpayer from
                                obtaining an automatic 6-month extension, the IRS believes
                                the regulations already provide for a 6-month automatic
                                extension of time to file a corporate tax return.
                                The Commissioner, SB/SE Division, also did not agree with
                                Recommendation 1.f., stating that to obtain an extension, a
                                corporation must file a Form 7004 and pay the estimated
                                taxes due at the time of filing. The Commissioner advised
                                that filing this Form is an indication of the taxpayer’s intent
                                to take advantage of the 6-month extension for filing the tax
                                return and that the extension of time to file does not extend
                                the time to pay required taxes shown on the tax return. The
                                Commissioner stated that, if the extension is granted and the
                                taxpayer fails to pay the required tax, the taxpayer must pay
                                interest from the due date of the return until the tax is paid.
                                The Commissioner stated the Tax Court has ruled that the
                                “date prescribed for payment” is determined without regard
                                to any extension of time for filing the tax returns. The
                                Commissioner stated the Congress placed a greater penalty
                                on failure to file a tax return as a means of encouraging tax
                                compliance, while interest serves as a payment for the use of
                                the money due and owed. The Commissioner advised that
                                reasonable cause is assumed for any underpayment of tax, if
                                the corporate taxpayer meets specific criteria under
                                C.F.R. § 301.6651-1(c)(4), where 90 percent of current
                                taxes has been paid by the return due date and any
                                remaining amount is paid by the extended due date. The
                                Commissioner stated that, if these requirements are met, the
                                FTP Penalty is administratively waived.
                                In addition, the Commissioner, SB/SE Division, stated the
                                IRS will not be able to track the potential benefits we
                                identified until an analysis of our findings is completed.
                                The Commissioner expressed concerns with the use of
                                penalties as a method of increasing revenue due to Penalty
                                Policy Statement 1-1-18, which states penalties support the
                                IRS mission only if they enhance voluntary compliance.
                                The Commissioner stated that penalties may increase
                                revenue, but they should only be used to encourage
                                compliant conduct.

                                                                                       Page 31
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                The Commissioner’s response also included an example to
                                illustrate the IRS’ concerns with denying any extension
                                based on an unpaid tax balance of $100,000 or more. The
                                example showed that, if a corporate taxpayer received an
                                extension, paid $12,000,000 in estimated income taxes as of
                                the due date of the return, but had unpaid taxes of $110,000
                                at the time of filing the corporate tax return, this taxpayer
                                would be denied an extension based on the safe harbor we
                                recommended even though the taxpayer met the requirement
                                of paying at least 90 percent of the current year’s taxes. The
                                Commissioner stated this taxpayer would not be treated as a
                                similarly situated taxpayer who may owe $90,000 of
                                $200,000 required taxes at the time a tax return is filed with
                                an automatic 6-month extension. The Commissioner
                                advised that the amount paid ($110,000) on the normal due
                                date of the return represents less than 90 percent of the taxes
                                required to be shown on the return but, due to the safe
                                harbor in our recommendation for revised regulations, this
                                taxpayer will escape any penalties since the $90,000 balance
                                due is less than $100,000.
                                Office of Audit Comment: While we are encouraged the
                                IRS plans to study the feasibility of implementing some of
                                our recommendations, we continue to believe taxpayer
                                burden could be reduced and voluntary payment compliance
                                could be improved by implementing those recommendations
                                with which the IRS disagrees. To reduce taxpayer burden,
                                for example, the implementation of Recommendation 1.c.
                                would have the effect of eliminating a 2-tier system under
                                which certain corporations receive automatic 3-month
                                extensions of time to file without filing an application, but
                                then must submit a paper form to obtain an additional
                                3-month extension, if needed. With the recommended
                                elimination of the 2-tier system and the recommended
                                eventual elimination of extension forms, all
                                payment-compliant taxable corporations would qualify for a
                                6-month extension of time to file without filing an extension
                                form.
                                To improve payment compliance, the implementation of
                                Recommendation 1.f., which proposed assessing the
                                FTP Penalty on delinquencies of $100,000 or more
                                regardless of the percentage of total taxes the $100,000

                                                                                       Page 32
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                represents, would have the effect of eliminating the IRS’
                                assumption that it is reasonable for corporations to underpay
                                by such large amounts as long as the amount is not over
                                10 percent of the corporation’s total tax liability. By
                                disagreeing with this recommendation, the IRS is taking the
                                position that the interest it charges is a sufficient deterrent to
                                such a large tax delinquency. We disagree since, as shown
                                on page 17 of this report, the effective interest rate charged
                                by the IRS can be as little as 1.7 percent of the corporation’s
                                delinquent taxes.
                                We completely agree with the premise of Penalty Policy
                                Statement P-1-18, which states, “Even though other results
                                such as raising of revenue, punishment, or reimbursement of
                                the costs of enforcement may also arise when penalties are
                                asserted, the Service will design, administer, and evaluate
                                penalty programs solely on the basis of whether they do the
                                best possible job of encouraging compliant conduct.”
                                However, we believe the evidence supports that the existing
                                extension regulations protect corporate taxpayers from just
                                penalties for payment noncompliance and are, in fact,
                                encouraging the noncompliance. Appendix IV of this report
                                quantifies the anticipated changes in taxpayer behavior from
                                the implementation of our recommendations for the IRS to
                                use its penalty authority to encourage compliant conduct.
                                As shown in the detailed calculations in Appendix IV, the
                                anticipated penalties for payment noncompliance would
                                decrease significantly over a 5-year implementation period.
                                If total payment compliance is achieved, the ultimate result
                                of our recommendations would be $0 in penalty revenue.
                                The example provided in the IRS’ response to illustrate its
                                concerns with denying an extension if the taxpayer’s unpaid
                                taxes are $100,000 or more (Recommendation 1.a.)
                                mistakenly concludes that the hypothetical corporation
                                owing $90,000 (45 percent) of a $200,000 liability would
                                receive an extension and not be penalized. Actually, under
                                our recommendations, this corporation would be denied an
                                extension per Recommendation 1.b. and would be assessed
                                a Delinquency Penalty per Recommendation 1.d.2.
                                (assuming the $110,000 paid by the due date was less than
                                the taxpayer’s prior year tax liability, a fact not provided in
                                the IRS’ example). Per Recommendation 1.d.2., the

                                                                                         Page 33
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                Delinquency Penalty would be assessed on all delinquent
                                amounts in excess of 10 percent of the tax liability. In this
                                example, the Delinquency Penalty would be assessed on
                                $70,000 ($90,000 – (0.1 X $200,000)) of the delinquent tax
                                amount.
                                2. Once the above changes to the IRS regulations have
                                   been implemented to ensure the objective and equitable
                                   treatment of payment noncompliance by corporate
                                   taxpayers, the IRS Commissioner should consider
                                   further changing the regulations to eliminate the
                                   requirement that taxable corporations must apply, either
                                   on paper or electronically, to the IRS to receive
                                   extensions of time to file tax returns. This action should
                                   be taken under authority granted in I.R.C. § 6081(a) for
                                   granting reasonable extensions of time to file of up to
                                   6 months.
                                Management’s Response: The Commissioner, SB/SE
                                Division, stated that further study must be done regarding
                                this recommendation, particularly since an IRS study
                                completed on June 18, 1999, raised serious concerns about
                                similar proposals. The Commissioner stated the IRS will
                                use the study team that was put in place to address the
                                recommendations from the prior TIGTA audit on individual
                                extensions of time to file.
                                The Commissioner, SB/SE Division, did not agree with our
                                conclusion that, over a 5-year period, taxpayer expenses of
                                $1.967 billion and IRS processing costs of $5.3 million
                                could be reduced by eliminating the requirement for taxable
                                corporations to apply for an extension of time to file. The
                                Commissioner stated there would be no significant
                                reduction in taxpayer expenses since they would still need to
                                make an estimate of the total tax they would report on their
                                returns and, therefore, they would still have to ensure they
                                met all of the requirements for meeting their tax obligations
                                timely. The Commissioner also stated that the up-front
                                costs to make the needed changes to programming,
                                publications, and training would eliminate the cost savings
                                outlined in our report.
                                Office of Audit Comment: Although management’s
                                response states that our recommendation to eventually

                                                                                      Page 34
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                eliminate extension forms needs further study, our
                                communications with the Office of Taxpayer Burden
                                Reduction indicated the requirement for taxpayers to request
                                extensions of time to file from the IRS will likely remain
                                and other approaches for simplifying the extension process
                                are under consideration. While the IRS’ efforts to reduce
                                the burden on corporations seeking extensions of time to file
                                are commendable, substantial and unnecessary taxpayer
                                burden will remain as long as the IRS continues to require
                                taxable corporations to apply for an extension.
                                We disagree with the IRS’ determination that there would
                                not be a significant reduction in taxpayer expenses from the
                                recommended elimination of extension applications. As
                                discussed in this report, the IRS’ own estimates of the
                                volume of extension applications and related preparation
                                time indicate that taxable corporations will expend
                                approximately 74 million hours in applying for extensions
                                between CYs 2005 and 2009. Estimated Tax for
                                Corporations (Form 1120-W), which is available to
                                corporations to assist them in making the appropriate
                                quarterly estimated tax payments,45 states that the average
                                time to complete this Form will vary from 10 hours to
                                51 hours, depending on individual circumstances.46 Since
                                our recommendations for requiring payment of sufficient
                                taxes by the tax return due date mirror the requirements for
                                making estimated tax payments, we do not believe
                                corporations desiring extensions of time to file would
                                require additional time to re-estimate their tax liabilities.
                                Rather, the time the IRS estimates is needed to prepare and
                                submit extension forms would be eliminated by the
                                implementation of our recommendations.
                                We are also unable to evaluate the IRS’ conclusion that
                                processing cost savings would not be realized by
                                eliminating the requirement for taxable corporations to


                                45
                                   Corporations generally must make estimated tax payments if they
                                expect their estimated tax (income tax less credits) to exceed $500 or
                                more. The installments are generally due by the 15th day of the 4th, 6th,
                                9th, and 12th months of the tax year.
                                46
                                   Includes time spent for record keeping, learning about the law or the
                                Form, and preparing the Form.
                                                                                                 Page 35
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                apply for an extension of time to file. The IRS provided no
                                specific information to support its conclusion. Without
                                information on the amounts or time periods associated with
                                the costs required to change the programming, publications,
                                and training, we cannot evaluate these change-related costs,
                                including whether they are a one-time or recurring cost.
                                3. The IRS Commissioner should develop a legislative
                                   proposal for submission to the Department of the
                                   Treasury to change I.R.C. §§ 6651(d) and 6621(c) to
                                   require assessments of the higher interest and FTP
                                   Penalties, starting the day after the normal tax return due
                                   date, on any corporate income tax delinquency of
                                   $100,000 or more related to a return that, for any reason,
                                   was not filed by the normal tax return due date.
                                Management’s Response: The Commissioner, SB/SE
                                Division, advised the IRS will incorporate this issue into the
                                study team that was put in place to address the
                                recommendations from the prior TIGTA audit on individual
                                extensions of time to file. The Commissioner stated the
                                team will determine if it is appropriate to develop a
                                legislative proposal for submission to the Department of the
                                Treasury, Office of Tax Policy.




                                                                                      Page 36
     Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
        Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effect that the existing tax laws, tax regulations, and
Internal Revenue Service (IRS) policies and procedures for granting extensions of time for filing
corporate income tax returns are having on the timely payment of taxes, fairness for all
taxpayers, taxpayer burden, and the Federal Government’s costs. We initiated this audit because
a previous Treasury Inspector General for Tax Administration review of extensions of time to
file individual income tax returns identified significant problems in these areas.1
To accomplish our objective, we:
I.       Determined, through study of legislative and regulatory histories, the intended tax
         administration role of extensions of time for filing corporate income tax returns and related
         IRS penalty enforcement in ensuring successful tax administration.
II.      Determined the level of corporate taxpayer burden created by extension-filing requirements
         by analyzing IRS statistics on the volume of extensions filed, both historical and projected,
         and by quantifying the time and dollar value of taxpayer burden hours estimated by the IRS
         to be associated with extension filing.
III.     Determined the effect of extension filing and related IRS penalty enforcement on corporate
         taxpayer behavior by securing and analyzing a Business Master File (BMF)2 extract of
         corporate taxpayer account data. The extract consisted of those corporations with a normal
         tax return due date in Calendar Year 1999 that filed their returns after the normal due date,
         regardless of whether they obtained an extension of time to file. The extract contained a
         4-year account history on each taxpayer.
IV.      Explored the demographics of payment-noncompliant corporations with extensions of time
         to file by analyzing tax return and account information on the corporate taxpayers included
         in our BMF extract.
V.       Evaluated the burden on the Department of the Treasury, including IRS processing costs
         and cash-flow impairments, related to the corporate return extension process.



1
  The Regulations for Granting Extensions of Time to File Are Delaying the Receipt of Billions of Tax Dollars and
Creating Substantial Burden for Compliant Taxpayers (Reference Number 2003-30-162, dated August 2003).
2
  The IRS database that consists of Federal tax-related transactions and accounts for business taxpayers. These
include employment taxes, income taxes on businesses, and excise taxes.




                                                                                                          Page 37
  Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
     Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                                                                 Appendix II


                           Major Contributors to This Report

Parker F. Pearson, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
William E. Stewart, Audit Manager
Timothy F. Greiner, Senior Auditor
Theodore J. Lierl, Senior Auditor
Marcus D. Sloan, Auditor
Robert J. Carpenter, Computer Specialist
Layne D. Powell, Computer Specialist




                                                                                       Page 38
 Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
    Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Quality Assurance and Performance Management, Large and Mid-Size Business
Division SE:LM:Q
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Deputy Director, Compliance Policy, Small Business/Self-Employed Division
SE:S:C:CP
Deputy Director, Submission Processing, Small Business/Self-Employed Division
SE:S:CAS:SP
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                  Page 39
  Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
     Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                                                                   Appendix IV


                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will accrue from 2005 through
2009 and will be incorporated into our Semiannual Report to the Congress.
Type and Value of Outcome Measure:
   •   Taxpayer Burden – Potential; $1.967 billion and 2.1 million corporations affected;
       reduced expenses by eliminating the requirement for taxable corporations to apply for
       extensions of time to file (see page 3).
   •   Increased Revenue – Potential; $392.3 million; increased Delinquency Penalty
       assessments for payment-noncompliant corporate taxpayers (see page 3).
   •   Increased Revenue – Potential; $120.6 million; increased interest and Failure to Pay
       (FTP) Penalty assessments for those taxpayers that, by the normal return due date, do not
       file a corporate income tax return and have unpaid taxes of $100,000 or more
       (see page 3).
   •   Taxpayer Rights and Entitlements – Potential; $421.5 million; reduced interest and
       FTP Penalties assessed against those corporations that increase the amount of taxes paid
       by the normal tax return due date in order to meet the recommended new safe harbor
       requirements (see page 3).
   •   Taxpayer Rights and Entitlements – Potential; $60.7 million; reduced Delinquency
       Penalties for those corporations that are currently assessed the Delinquency Penalty but
       would be exempted from the Penalty by meeting the recommended new safe harbors
       (see page 3).
   •   Inefficient Use of Resources – Potential; $5.3 million; reduced processing costs for the
       Internal Revenue Service (IRS) by eliminating the requirement for taxable corporations
       to apply for extensions of time to file (see page 3).
Methodology Used to Measure the Reported Benefit:
The following is a general summary of the methodologies used to measure the reported benefits.
All references to “taxpayers” and “returns” are to corporate taxpayers and corporate income tax
returns, respectively. All references to 1999 refer to extensions granted, payments made, or
returns filed for which the normal tax return due date was sometime during Calendar
Year (CY) 1999. This includes all corporations with tax years ending on October 31, 1998,
through September 30, 1999. For all tax, penalty, and interest estimates, we assumed the future


                                                                                          Page 40
  Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
     Are Needed to Alleviate Significant Problems With Administering the Tax Laws

levels and types of noncompliance would be the same as those among taxpayers with normal
(i.e., nonextended) 1999 tax return due dates.
To determine the IRS processing cost savings from the elimination of extension applications
received from taxable corporations, we relied on IRS projections of future extension volumes as
reflected in Projections of Returns to be Filed in Calendar Years 2002-2009, Statistics of Income
Bulletin, Winter 2002-2003 (April 2003) and the costs contained in the IRS’ Cost Estimate
Reference 3.30.10-38. The costs for processing Application for Automatic Extension of Time to
File Corporation Income Tax Return (Form 7004) were $703.32 per 1,000.
To determine the cost savings to corporations from the elimination of extension applications, we
assumed the corporations would be relieved of the 9.817 hours of burden that the IRS states on
Form 7004 as being required to complete the extension process. We used computer programs to
determine the percentage of extensions obtained in CY 1999 by taxable corporations. We
applied this percentage to IRS projections of future extension volumes to determine the total
number of extensions that could be eliminated. To determine the total burden hours that could
be eliminated, we multiplied the extension volume by 9.817 hours. To place a monetary value
on this taxpayer burden, we multiplied the total burden hours by the Office of Management and
Budget’s estimate of the cost-per-hour ($26.50) of taxpayer burden.
     Table 1: Value of Taxpayer Time Saved by Eliminating Extension Forms for Taxable Corporations
                                      CYs 2005 – 2009 (in millions)

                                            2005       2006        2007       2008       2009        Totals
 Projected Number of Forms 7004              3.185      3.277       3.370      3.462      3.554       16.848
 (Per the IRS, April 2003)
 Percentage of Forms 7004 Filed by         44.89%     44.89%     44.89%      44.89%     44.89%           N/A
 Taxable Corporations in CY 1999
 Extension Forms to be Eliminated            1.430      1.471       1.513      1.554      1.595         7.563
 IRS Processing Cost Savings From             $1.0        $1.0       $1.1       $1.1        $1.1         $5.3
 Eliminating Extension Forms
 ($703.32 per 1,000 Forms 7004)
 Extension Preparation Hours                 14.03      14.44       14.85      15.26      15.66         74.24
 (9.817 Hours per Form 7004)
 Value of Corporation’s Time Saved          $371.9     $382.7     $393.5      $404.3     $415.0     $1,967.4
 by Extension Elimination
 ($26.50 per Hour)
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS filing projections and related
processing costs.




                                                                                                        Page 41
     Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
        Are Needed to Alleviate Significant Problems With Administering the Tax Laws

To determine the number of corporations affected by eliminating extension applications, it was
necessary to compensate for those corporations that applied for extensions in multiple years.
Therefore, we relied on our computer extract of IRS records that contained 4 years of account
data for each corporation that filed its return after the normal CY 1999 tax return due date,
regardless of whether an extension of time to file was obtained. We determined the frequency of
extensions filed by each corporation that had obtained an extension at least once for tax returns
with normal due dates during the 4 years from CYs 1998 through 2001. As shown in Table 2,
this analysis, in conjunction with IRS projections of future extension filings, was used to
estimate the number of taxable corporations that would benefit from the elimination of extension
applications.
         Table 2: Estimated Number of Taxable Corporations Affected by Eliminating Extension Forms
                                    (in thousands, except for averages)

    Number of Extensions Obtained by                        One       Two        Three      Four       Totals1
    Corporations During 4-Year Period:
    Number of Taxable Corporations Obtaining at             172.1      240.8      301.8      401.7      1,116.3
    Least One Extension From 1998 Through 2001
    (including an extension in 1999)
    Total Number of Extensions Obtained                     172.1      481.6      905.4    1,606.7      3,165.7
    (1998 through 2001)
    Percentage of All Extensions                           5.43% 15.21% 28.60% 50.75% 100.00%
    Percentage of Years in Which an Extension Was            25%        50%        75%       100%          N/A
    Obtained From 1998 Through 2001
    Average Number of Extensions per Taxable                 1.25       2.50        3.75       5.00        N/A
    Corporation in 5 Years
    Total Number of Extensions to Be Filed in               410.9    1,150.5    2,162.9    3,838.4      7,562.6
    2005 Through 2009 by Taxable Corporations
    (See Table 1 for total. Details obtained by
    applying “Percentage of All Extensions” to total.)
    Total Number of Taxable Corporations Filing             328.7      460.2      576.8      767.7      2,133.4
    Extensions From 2005 Through 2009
    (total number of extensions divided by average
    number of extensions per corporation)
Source: TIGTA analysis of IRS Business Master File (BMF)2 data and IRS filing projections.

Table 3 presents an analysis of the impact of implementing the new safe harbors recommended
in this report. To comply with the recommended new safe harbors, we assumed taxpayers would

1
  Details may not add to totals due to rounding.
2
  The IRS database that consists of Federal tax-related transactions and accounts for business taxpayers. These
include employment taxes, income taxes on businesses, and excise taxes.
                                                                                                            Page 42
  Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
     Are Needed to Alleviate Significant Problems With Administering the Tax Laws

be required to file by the extended due date and pay, by the normal tax return due date, the lesser
of 90 percent of the current year’s tax or an amount equal to the prior year’s tax. We further
assumed no safe harbors would be available for those corporate taxpayers that do not file by the
extended due date or underpay their taxes by $100,000 or more on the normal due date.
We used computer programs to recompute the Delinquency Penalties on all postnormal due date
Fiscal Year 1999 delinquencies based on these recommended new safe harbors. These
recomputations produced an increase in total Delinquency Penalties for corporations not meeting
the new safe harbor criteria and a decrease in total Delinquency Penalties for corporations that
did not obtain extensions of time to file but nevertheless met the recommended safe harbor
criteria.
We also used computer programs to identify those corporations that would likely change their
tax payment behavior (both the timing and amount of payments) in reaction to the recommended
new safe harbors. We assumed those corporations with extensions of time to file that filed
returns by the extended due date, thus avoiding the Delinquency Penalty, would also take the
steps necessary to meet the new safe harbors and continue avoiding the Delinquency Penalty.
We determined the actual amounts of interest and FTP Penalties assessed against these
taxpayers, determined the amounts of their delinquent taxes, computed the new safe harbor
amount for each taxpayer, and computed the increases in their Delinquency Penalties under the
new safe harbors.
In recognition that all corporations would not immediately adapt to the recommended new safe
harbors, we assumed a 5-year phase-in period. To determine the amount of the annual
accelerated tax payments, we multiplied the total amounts in excess of the safe harbor
allowances by the percentage of corporations expected to be in compliance with the new safe
harbors each year. We also used these percentages to determine the decreases that would occur
in their current interest and FTP penalties (under the current regulations) due to their increased
payment compliance. Finally, we used these percentages to determine how much of the
computer-determined Delinquency Penalty, under the new safe harbors, these taxpayers would
avoid by improving their payment compliance. We assumed that, at the end of 5 years, the
payment compliance level among these corporations would reach 91 percent, the 1999 level of
payment compliance present in the general population of taxable corporations.




                                                                                            Page 43
     Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
        Are Needed to Alleviate Significant Problems With Administering the Tax Laws

               Table 3: Increased Delinquency Penalties Due to Recommended Regulatory Changes
                                         CYs 2005 – 2009 (in millions)

                                                     2005     2006    2007     2008    2009     Totals3
    Delinquency Penalties, Under Current             $40.2    $40.2   $40.2   $40.2    $40.2     $200.9
    Regulations, for Taxable Corporations With
    No Extension
    Reduction in Delinquency Penalties From New      $12.1    $12.1   $12.1   $12.1    $12.1      $60.7
    Safe Harbors for Taxable Corporations With
    No Extension
    Potential Delinquency Penalty Increases for      $165.1 $165.1 $165.1 $165.1 $165.1          $825.6
    All Taxable Corporations Under Proposed
    Safe Harbors
    Corporations Likely to Change Tax
    Payment Behavior:
    Delinquent Taxes in Excess of Safe Harbors       $903.2 $903.2 $903.2 $903.2 $903.2 $4,516.2
    Delinquency Penalty Increases                    $135.0 $135.0 $135.0 $135.0 $135.0          $675.0
    Interest and FTP Penalties, Current              $131.3 $131.3 $131.3 $131.3 $131.3          $656.6
    Regulations
    Assumed Level of Compliance With                  25%      50%     70%      85%      91%       N/A
    Recommended Safe Harbors
    New Tax Payments by the Normal Due Date          $225.8 $451.6 $632.3 $767.8 $821.9 $2,899.4
    Delinquency Penalty Increases Avoided             $33.7   $67.5   $94.5 $114.7 $122.8        $433.3
    Net Delinquency Penalty Increases                $131.4   $97.6   $70.6    $50.4    $42.3    $392.3
    (potential minus avoided)
    Interest and FTP Penalty Reductions From          $32.8   $65.7   $91.9 $111.6 $119.5        $421.5
    Improved Payment Compliance
Source: TIGTA analysis of IRS BMF data.

Table 4 presents the calculations used to estimate the increases in FTP Penalties and interest
following the implementation of the recommended tax law changes relative to delinquent taxes
of $100,000 or more. The computations assume the IRS regulations are changed to no longer
assume reasonable cause for FTP Penalty purposes for underpayments that are less than
10 percent of the corporation’s tax liability if the underpayment is $100,000 or more. The
computations also assume tax law changes that require an additional 2 percent of interest on
large corporate tax underpayments and the doubling of the FTP Penalty to begin on the day after


3
    Details may not add to totals due to rounding.
                                                                                                Page 44
  Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
     Are Needed to Alleviate Significant Problems With Administering the Tax Laws

the normal tax return due date in the case of delinquencies in excess of $100,000 on returns that
are not filed by the normal tax return due date.
To assess the impact of these changes, we used computer programs to determine the total of such
CY 1999 delinquencies, as well as the portion of those delinquencies attributable to corporations
that had paid 90 percent or more of their liabilities by the normal tax return due date and, thus,
would have benefited from current reasonable cause assumptions. We also used computer
programs to determine the average number of days between the normal return due dates for these
corporations and their actual return filing dates. For computing FTP Penalties related to
reasonable cause elimination, we converted the days to the number of months to which the
FTP Penalties would apply if not for current reasonable cause regulations (a part of a month was
considered an additional month). For computing the increased interest and increased penalties
from the doubling of the FTP Penalty, we used computer programs to determine the average
number of days between the normal return due dates and actual return filing dates for all
corporate taxpayers with delinquencies of $100,000 or more, regardless of whether they would
have met reasonable cause criteria. For this period of time, we computed the interest at
2 percent compounded daily on the total amount of delinquencies of $100,000 or more. We
computed the increased penalties from the doubling of the FTP Penalty by multiplying the same
total delinquent tax amount by the average number of months delinquent (a part of a month was
considered an additional month) and by 0.5 percent, the additional amount of the FTP Penalty to
be assessed.




                                                                                           Page 45
     Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
        Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                  Table 4: Increased Interest and Penalties on Delinquencies of $100,000 or More
                                          CYs 2005 – 2009 (in millions)

                                                     2005     2006     2007      2008       2009       Totals4
    CY 1999 Delinquent Taxes Over                    $370.1   $370.1   $370.1    $370.1     $370.1 $1,850.3
    $100,000, Return Filed After Normal
    Due Date, Reasonable Cause
    Assumed by the IRS
    Average Number of Months Late by                  6        6        6         6           6         N/A
    Taxpayers With Reasonable Cause
    Assumed by the IRS
    FTP Penalty After Eliminating                     $11.1    $11.1    $11.1     $11.1      $11.1       $55.5
    Reasonable Cause
    All Delinquent Taxes Over $100,000          $1,238.2 $1,238.2 $1,238.2 $1,238.2 $1,238.2 $6,190.8
    Average Number of Days From                      190      190      190       190        190         N/A
    Normal Due Date to Return Filing
    Date
    Additional Interest if Rate Increased             $12.9    $12.9    $12.9     $12.9      $12.9       $64.7
    by 2 Percentage Points After the
    Normal Return Due Date
    Average Number of Months to                       7        7        7         7           7         N/A
    Which FTP Penalty Applies
    Additional FTP Penalties if Rate                  $43.3    $43.3    $43.3     $43.3      $43.3      $216.7
    Doubles After the Normal Return
    Due Date
    Noncompliance Levels After                        75%      50%      30%        15%            9%      N/A
    Implementing Recommendations
    Adjusted Interest Increases                        $9.7     $6.5     $3.9      $1.9       $1.2       $23.2
    Adjusted FTP Penalty Increases                     $8.3     $5.6     $3.3      $1.6       $1.0       $19.9
    From Eliminating Reasonable Cause
    Adjusted FTP Penalty Increases                    $32.5    $21.7    $13.0      $6.5       $3.9       $77.6
    From Doubling the Rate
    Total Increases in Interest and                   $50.5    $33.7    $20.2     $10.1       $6.1      $120.6
    FTP Penalty
Source: TIGTA analysis of IRS BMF data.



4
    Details may not add to totals due to rounding.

                                                                                                       Page 46
     Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
        Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                                                                                   Appendix V

                     Calculation of the Implications of Recommendations
                        on the Federal Government’s Budget Process

This appendix presents detailed information on the measurable impact that our recommended
actions will have on additional funds available for the Federal Government’s use in Fiscal Years
(FY) 2005 through 2009. Accelerating the payment of taxes can help the Federal Government to
avoid unnecessary borrowing costs. Increasing tax revenues in a fiscal year makes additional
funds available for the Federal Government’s use. Since such benefits are not expressly
addressed in the Inspector General Act of 1978,1 the following measurable benefits of our
recommendations will not be listed in our Semiannual Report to the Congress:
      Tax Revenues Accelerated by 6 Months – Potential; $2.9 billion. Increased tax payments
      received by normal return due date resulting from new safe harbors (see page 3).
      Increased Current Fiscal Year Tax Revenues – Potential; $267.1 million. Increased tax
      payments received in the fiscal year in which they are due resulting from new safe harbors
      (see page 3).
We used computer programs to estimate the increased amount of taxes that would be paid by the
normal tax return due date by corporations seeking to comply with the recommended safe harbor
requirements. We computed both annual gross and incremental increases in current fiscal year
revenues, in recognition that increases in current year receipts cause a corresponding decrease in
the subsequent fiscal year.
                  Table 1: Changes in Taxpayer Payments due to Proposed New Safe Harbors
                                        FYs 2005 – 2009 (in millions)

                                               2005       2006       2007      2008       2009        Totals
    Increased Tax Payments by the              $225.8    $451.6     $632.3    $767.8      $821.9     $2,899.4
    Normal Tax Return Due Date
    Additional Current Fiscal Year Tax          $73.4    $146.7     $205.4    $249.5      $267.1        $942.1
    Revenue
    Annual Incremental Increases in             $73.4      $73.4     $58.7      $44.0      $17.6        $267.1
    Current Fiscal Year Tax Revenue
Source: Treasury Inspector General for Tax Administration analysis of Internal Revenue Service (IRS) Business
Master File2 data.


1
 5 U.S.C.A. app 3 (West Supp. 2003).
2
 The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.



                                                                                                           Page 47
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                                                        Appendix VI


                  Management’s Response to the Draft Report




                                                                              Page 48
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws




                                                                              Page 49
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws




                                                                              Page 50
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws




                                                                              Page 51
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws




                                                                              Page 52
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws




                                                                              Page 53
Changes to the Regulations for Granting Extensions of Time to File Corporate Returns
   Are Needed to Alleviate Significant Problems With Administering the Tax Laws




                                                                              Page 54
